/

Ref: 1969811 pg 38 of 54 for MARK BENTON

FILED MOV - 120ft'

nsr THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

CIVIL ACTION

MARK BENTON

No. 12-1015

v.
BRIAN COLEMAN, et al.

ORDER
AND NOW, this 1st day of November, 2013, upon careful and independent consideration
of Petitioner Mark Benton’s pro se Petition for Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254, and after review of the Report and Recommendation of United States Magistrate Judge
Linda K. Caracappa and Benton’s objections thereto, it is ORDERED:
1.

Benton’s Objections to Magistrate’s Report and Recommendation (Document 11)

are OVERRULED;1

l

In his objections to the Report and Recommendation, Benton raises no issues that would cause
this Court to disturb Judge Caracappa’s conclusion that the statute of limitations under 28 U.S.C.
§ 2244(d)(1) bars consideration of Benton’s habeas petition.
In objecting to the Report and Recommendation, Benton reasserts his claim that the
United States Supreme Court’s decision in Holland v. Florida, 130 S. Ct. 2549 (2010), intended
to overrule the Third Circuit’s decision in LaCava v. Kyler, 3S8 F.3d 271 (3d Cir. 2005). The
LaCava Court held that absent affirmative misrepresentation, an attorney’s failure to inform a
client of an unsuccessful state appeal does not qualify as the extraordinary circumstances
necessary to equitably toll the statute of limitations for a habeas petition. Id. at 276. Benton
claims the failure of his attorney to inform him about the Pennsylvania Supreme Court’s denial
of his petition for allowance of appeal of his PCRA petition, which caused him to file his habeas
petition twenty-nine days after the statute of limitations expired, warrants applying equitable
tolling, and his habeas petition should be considered timely.
Benton’s efforts to distinguish his circumstances from those in LaCava are not
persuasive, as Judge Caracappa has already addressed why Benton’s attorney’s actions did not
warrant equitable tolling. The Supreme Court in Holland decided extraordinary circumstances
are not limited to attorney misrepresentation, but could arise when attorney negligence amounts
to more than “garden variety” negligence. See Holland, 130 S. Ct. at 2564. As Judge Caracappa
explained, however, not only was Holland a capital case, but the Supreme Court reiterated “a

Ref: 1969811 pg 39 of 54 for MARK BENTON

"•v

garden variety claim of excusable neglect,” such as simple miscalculation leading a lawyer to
miss a filing deadline, does not warrant equitable tolling. Idla his objections, Benton bolsters his argument by pointing to two recent Supreme Court
decisions and one Third Circuit opinion he claims demonstrate the courts’ desire to expand the
application of equitable tolling and “ensure justice is served in a fundamentally fair manner.”
Objections to Magistrate’s Report and Recommendation 4, ECF No. 11. Benton asserts these
cases, when viewed in light of the Supreme Court’s decision in Holland, relax the principle of
Coleman v. Thompson (and LaCava), that “[ajttorney ignorance or inadvertence” in a
postconvicition proceeding does not toll a habeas petition filing deadline “because the attorney is
the petitioner’s agent when acting, or failing to act, in furtherance of the litigation, and the
petitioner must bear the risk of attorney error.” 501 U.S. 722, 753 (1991) (citation and internal
quotation marks omitted). First, in Maples v. Thomas, the Supreme Court held that under agency
principles, “a client cannot be charged with the acts or omissions of an attorney who has
abandoned him.” 132 S. Ct. 912, 924 (2012). The Court differentiated between attorney error and
attorney abandonment, and emphasized the case focused on the latter, justifying equitable tolling
due to “extraordinary circumstances beyond [petitioner’s] control.” Id. Next, in Martinez v.
Ryan, the Supreme Court recognized a narrow exception to the general rule of Coleman, finding
“[w]here, under state law, claims of ineffective assistance of trial counsel must be raised in an
initial-review collateral proceeding, a procedural default will not bar a federal habeas court from
hearing a substantial claim of ineffective assistance at trial if, in the initial-review collateral
proceeding, there was no counsel or counsel in that proceeding was ineffective.” 132 S. Ct. 1309,
1320 (2012). The Court limited its decision only to the first occasion a state allows a prisoner to
raise a claim of ineffective assistance, and expressly stated the holding did not extend to attorney
errors in any other proceedings, including appeals from initial-review collateral proceedings or
petitions for discretionary review in state appellate courts. Id. Benton also relies on the Third
Circuit’s decision in Nara v. Frank, 264 F.3d 310 (3d Cir. 2001). In that case, the Court of
Appeals ordered an evidentiary hearing to determine if equitable tolling was warranted in a case
in which the petitioner alleged that his mental incompetency prevented him from filing his
habeas petition on time and that his attorney during his third PCRA proceeding effectively
abandoned him when she failed to inform him that the Pennsylvania Supreme Court denied
review of his motion to withdraw his guilty plea, refused to remove herself as appointed counsel,
led him to believe she was going to file a habeas petition on his behalf, and told him there were
no time constraints for filing a petition. Id. at 320.
Benton’s reliance on these cases does not undermine Judge Caracappa’s finding that his
attorney’s actions did not qualify as extraordinary circumstances justifying, equitable tolling.
First, the Supreme Court issued its decision in Maples on January 18, 2012, and its decision in
Martinez on March 20, 2012, and the Third Circuit decided Nara in 2001. Judge Caracappa
issued her Report and Recommendation on July 25, 2012, and presumably considered this case
law when making her recommendation. Second, even if Judge Caracappa did not take these cases
into account, the holdings in each do not change the outcome here because they are easily
distinguishable from this case, la Maples, the Court dealt with attorneys who abandoned their
client without leave of court, without informing him they could no longer represent him, and
without securing any substitution of counsel. Maples, 132 S. Ct. at 927. In this case, Benton
made no showing,that his.attorney abandoned him; he only alleges his attorney failed to informhim the state court denied review of his appealMn Martinez.Mhe Court expressly stated its
2

*ef: 1969811 pg 40 of 54 for MARK BENTON

2.

The Report and Recommendation (Document 10) is APPROVED. and

ADOPTED;
3.

Benton’s petition for writ of habeas corpus (Document i) is DENIED;

4.

There has been no substantial showing of the denial of a constitutional right

warranting the issuance of a certificate of appealability; and
5.

The Clerk of Court is DIRECTED to mark this case CLOSED.

b j\j 3 i~ i-S c D'
BY THE COURT:

i:G7 -4 2013
CLuRiCQrCOlhii

\

Is/ Juan R. Sanchez
Juan R. Sanchez, J.

holding would not apply to what Benton alleges occurred in this case—attorney errors in
x “petitions for discretionary review in the State’s appellate courts.” Martinez, 132 S. Ct at 1320.
Further, the petitioner in Nara alleged more than just attorney error; he claimed he suffered from
mental incompetence and his attorney abandoned him. In addition, the Third Circuit only found
an evidentiary hearing was necessary, not' that equitable tolling applied.
Benton admits that “Martinez was not specifically answering a question about
‘extraordinary circumstances,”’ but asserts “that decision in conjunction with Maples is
illustrative of the Court’s intent” to relax the principle found in Coleman. Objections to
Magistrate’s Report and Recommendation 4, ECF No. 11. Even if true, a relaxation of Coleman_
inary—attorney..misconduct
is_meaningless m this case because,____
•nd;
warrants equitable 'toffingrBecause Benton, does not_.present-any-new-facts-in-his__objections
regarding his attorney’s performance, he still fails to demonstrate, that the alleged negligence of
his attorney amounts to more than “garden variety” neglect. Simply failing to notify a client of a
denial of petition for review is not comparable to the extraordinary circumstances of Maples,
Holland, or Nara. Accordingly, Benton’s objections are denied.
Lastly, on August 20, 2012, almost two weeks after filing his objections, Benton filed an
affidavit from his counsel for his initial PCRA petition (not the counsel against whom he is
alleging misconduct). Under Local Rule of Civil Procedure 72.1, Benton had fourteen days after
issuance of the Report and Recommendation to file his objections. Because Judge. Caracappa
filed her Report on July 25, 2012, this affidavit is not timely and need not be considered as part'
of Benton’s objections. However, even treating it as part of his objections, the affidavit .does not
demonstrate equitable tolling should'apply in this case. It only provides context for the failure tol
[notify Benton of the appeal, and as explained above, this failure does not constitute extraordinary![circumstances necessary to invoke equitable tolling.
3

Ref: 1969811 pg 41 of 54 for MARK BENTON

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVAl^gp jjj]_ 2 5 2012
CIVIL ACTION

MARK BENTON, JR.
Petitioner.
v.

”

NO. 12-1015

BRIAN COLEMAN, et al.,
Respondents.

REPORT AND RECOMMENDATION
LINDA K. CARACAPPA
UNITED STATES MAGISTRATE JUDGE
Now pending before this court is a Petition for Writ of Habeas Corpus, filed
pursuant to 28 U.S.C. § 2254, by a petitioner currently incarcerated in the State Correctional
Institution Fayette, in LaBelle, Pennsylvania. For the reasons which follow, it is recommended
that the petition be DENIED and DISMISSED.
I.

PROCEDURAL HISTORY
On January 31, 2006, following a jury trial presided over by the Honorable Alan

M. Rubenstein of the Bucks County Court of Common Pleas, petitioner was found guilty of first
degree murder, attempted murder, robbery of a motor vehicle, firearms not to be carried without
a license, resisting arrest and fleeing and eluding a police officer. Specifically, petitioner was
found guilty of the fatal shooting of Wael Rafaey and the shooting of Nancy Martinez Alvarez.
Petitioner .was found guilty of stealing victim Rafaey’s car and fleeing from police. Petitioner
was found not guilty of aggravated assault and robbery. Petitioner was sentenced to a term of life
imprisonment. Petitioner was further sentenced to consecutive sentences of not less than five (5)

ENTERED

moi2
CLERK OF COURT

Ref: 1969811 pg 42 of 54 for MARK BENTON

i

to not more than ten (10) years for attempted murder, and not less than two and a half (2 Vz) to
not more than five (5) years for robbery of a motor vehicle.
Petitioner filed a direct appeal to the Superior Court. On January 26, 2007, the
Superior Court affirmed petitioner’s judgment of sentence. Petitioner’s petition for allowance of
appeal to the Pennsylvania Supreme Court was subsequently denied on July 24, 2007.
On September 18, 2008, petitioner filed a timely petition under the Post.
Conviction Relief Act (PCRA), 42 Pa.C.S. § 9541, et seq. Attorney Darnel Silverman, Esquire
represented petitioner. An evidentiary hearing was held .on February 2, 2009. The PCRA court
dismissed the petition on November 2, 2009.
Petitioner filed a notice of appeal to the Superior Court. The court appointed
Keith Williams, Esquire to represent petitioner. On November 5, 2010, the Superior Court
affirmed the PCRA court’s decision and denied petitioner’s counseled PCRA appeal. Petitioner
filed a request for allowance, of appeal to the Pennsylvania Supreme Court, which was denied on
December 5, 2011.
I'W 5
On February 6, 2012, petitioner filed the instant habeas petition in the United
/)* n.

f’Uv. rf "W

States District Court in the Middle District of Pennsylvania, Docket No. 12-cv-299. On February
15, 2012, the instant case was transferred to this Court.
On April 26, 2012, this Court ordered petitioner to file a complete copy of the
original petition that was filed in the Middle District, as the petition on record was missing
relevant pages.
On May 18, 2012 petitioner filed a new petition instead of re-filing a complete
. copy of the original.

2

Ref: 1969811 pg 43 of 54 for MARK BENTON

//- '

: ii

( t

The instant petition seeking habeas corpus relief, claims:
1.

Direct appeal counsel rendered ineffective assistance in failing to preserve
the claim that the trial court erred in failing to instruct the jury completely
and accurately on the charge of unreasonable belief voluntary
manslaughter, omitting the elements of the offense, definitions of those
elements and the applicable burden of proof, and trial counsel was
ineffective for failing to register a clear objection;

2.

Trial counsel rendered ineffective assistance in failing to present in the
guilty phase, that the Commonwealth witness, Nancy Alvarez, previously
identified the deceased, Wael Rafaey, and not petitioner, as the one who
shot her. Such evidence was critical to support petitioner’s claims of self
defense and defense of others and undercut the conviction for attempted
murder;

3.

Trial counsel rendered ineffective assistance in her presentation of the
defense of unreasonable belief voluntary manslaughter, by failing to
introduce and argue available abundant evidence that petitioner’s capacity
to accurately perceive and judge the actions of others was severely
compromised;

4.

Trial and appellate counsel rendered ineffective assistance in failing to
raise at trial or on appeal, the claim that the police erred in failing to
preserve from the deceased evidence of gunshot primer residue which
could have exonerated petitioner, and as such, deprived petitioner of his
right to due process;

i

5.

Trial counsel rendered ineffective assistance in failing to object to
prosecution evidence that a Commonwealth witness, Angelo Lopez, was
“rewired to testify truthfully” as a condition of his deal with the
Commonwealth and that the Commonwealth believed that Lopez had in
fact, complied with this condition;

•
Qfr-

<

6.

Trial counsel rendered ineffective assistance in failing to impeach
Commonwealth witness, Angelo Lopez with several admissible non-fmal
.' criminal dispositions;

7.

Trial counsel rendered ineffective assistance in failing to request, or object
to the absence of a jury instruction that the jury should consider the
evidence of Mr. Lopez’s pending cases as relevant to his bias in favor of
the Commonwealth;

3

kef: 1969811 pg 44 of 54 for MARK BENTON

1 *

d lL

8.

Trial counsel’s cumulative errors in connection with the Commonwealth
witness, Angelo Lopez, deprived petitioner of the effective assistance of
counsel;

9.

Trial counsel rendered ineffective assistance in withdrawing her objection
to the testimony that immediately upon his arrest petitioner said to
Bensalem police officer, Todd Shapiro, “Smith you’re a bitch,” followed
by evidence suggesting petitioner was threatening a police officer .
unconnected to this case, as this was completely irrelevant and prejudicial
to petitioner’s right to a fair trial;

10.

The prosecutor’s repeated references to petitioner as “that AfricanAmerican male,” where race was an irrelevant factor, injected into this
trial improper elements of race and racial prejudice such that petitioner’s
rights to due process were violated. Trial counsel’s failure to object
denied petitioner the effective assistance of counsel;

11.

Trial counsel rendered ineffective assistance in failing to object to the trial
court’s failure to include as re-instructions petitioner asserted, where such
failure improperly tilted the court’s instructions in favor of conviction;

12.

Trial counsel failed to.object to the trial court’s erroneous instruction that
if the jury found that the Commonwealth did not prove voluntary
manslaughter, “then the defendant is not guilty of any crime with which he
is charged,” as this would lead certain jurors to convict in order to avoid a
complete aquittal on all charges;

13.

Trial counsel rendered ineffective assistance in giving a rambling '
unfocused closing argument that failed to address effectively the defense
asserted;

14.

Direct appeal counsel rendered ineffective assistance of counsel in failing
to allege as a separate and distinct basis for relief under the United States
Constitution that the evidence was insufficient.as a matter of law to sustain
the conviction for attempted murder of Nancy Alvarez, as there was no
evidence that petitioner specifically intended to kill her;

15.

Direct appeal counsel rendered ineffective assistance of counsel in failing
to allege as a separate and distinct basis for relief under the United States
Constitution that the trial court erred in admitting inflammatory,
unnecessary and prejudicial photographs and power point slides of the
deceased’s gruesome injuries; and

/■>

fee

4

Ref: 1969811 pg 45 of 54 for MARK BENTON

'"f ■

16.

The cumulative impact of all the errors committed at trial deprived
petitioner of a fair trial and the effective assistance of counsel.

Respondents retort that petitioner is not entitled to federal habeas relief.
Respondents assert that petitioner’s habeas petition is untimely. In the alternative, respondents
contend that petitioner’s claims are without merit.
The court agrees that petitioner’s habeas petition is untimely. As such, petitioner
is not entitled to habeas relief.
II.

TIMELINESS
A strict one-year time limitation on the filing of new petitions is set forth in the

federal habeas statute, 28 U.S.C. § 2241, et seq., which was amended under the Anti-Terrorism
and Effective Death Penalty Act (“AEDPA”), enacted in April 24, 1996. Under section 2244(d),
the AEDPA provides:
A 1-year period of limitation shall apply to an application for a Writ of Habeas Corpus by
a person in custody pursuant to the judgment of a state court. The limitation period shall
run from the latest of (A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by state
action in violation of the Constitution or laws of the United States is removed, if
the applicant was prevented from filing by such state action;
(C) the date on which the constitutional right asserted was initially recognized by
the Supreme Court and made retroactively applicable to cases on collateral
review; or
(D) the date on which the factual predicate of the claim or claims presented could
have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1) (1996).

5

\ef: 1969811 pg 46 of 54 fo.r MARK BENTON

- •+

This statute also creates a tolling exception, which notes that “[t]he time during
which a properly filed application for state post-conviction or other collateral review with respect
to the pertinent judgment or claim is pending shall not be counted toward any period of limitation
under this subsection.” 28 U.S.C. § 2244(d)(2). A “properly filed application” is “one submitted
according to the state’s procedural requirements, such as the rules governing the time and place
of filing.” Lovasz v. Vaughn. 134 F.3d 146, 148 (3d Cir. 1998). If a petitioner files an out-oftime application and the state court dismisses it as time-barred, then it is not deemed to be a
“properly filed application” for tolling purposes. Merrit v. Blaine. 326 F.3d 157, 165-66 (3d Cir.
2003).
In the case at bar, petitioner’s conviction became final on October 22, 2007,
ninety days after the Pennsylvania Supreme Court denied petitioner’s allowance of appeal. The
statute of limitations was tolled on September 18, 2008, after approximately eleven months of the
statute of limitations had run, when petitioner filed an application for post-conviction relief. The
statute of limitations began to run again on December 5, 2011, when the Pennsylvania Supreme
Court opted not to review petitioner’s PCRA appeal. See Stokes v. District Attorney of County
of Phila.. 247 F.3d 539, 543 (3rd Cir. 2001) (holding that the ninety day period during which a
state prisoner may file a petition for a writ of certiorari in the United States Supreme Court from
the denial of his state post-conviction petition does not toll the one year limitation period set
forth in 28 U.S.C. § 2244(d)(2)). Petitioner then had approximately thirty-four days, or until
January 8, 2012, remaining to file a timely petition for writ of habeas corpus.
The instant habeas petition was not filed until February 6, 2012, twenty-nine days
after the deadline to file a timely habeas petition had run, rendering petitioner’s habeas petition

6

Ref: 1969811 pg 47 of 54 for MARK BENTON

f

untimely.
One avenue of relief remains for petitioner. The statute of limitations set forth in
the AEDPA is subject to equitable tolling. Miller v. New Jersey State Dept, of Corrections. 145
F.3d 616, 618 (3d Cir. 1998). Equitable tolling is proper only when the “principles of equity
would make [the] rigid application [of a limitation period] unfair.” IT (quotation omitted). In
order to qualify for equitable tolling “[t]he petitioner must show that he or she ‘exercised
reasonable diligence in investigating and bringing [the] claims.’ Mere excusable neglect is not
sufficient.” Id at 618-19. Our Circuit court has identified four circumstances in which equitable
tolling is justified: (1) when the defendant has actively misled the plaintiff; (2) when the plaintiff
has in some extraordinary way been prevented from asserting his or her rights; (3) when the
plaintiff has timely asserted rights, but has mistakenly done so in the wrong forum; or (4) when
the claimant received inadequate notice of the right to file suit, a motion for appointment of
counsel is pending, or where the court has misled the plaintiff into believing that he or she had
done everything required. Jones v. Morton. 195 F.3d 153, 159 (3d Cir. 1999) (citing United Sates
v. Midgley, 142 F.3d 174, 179 (3d Cir. 1998); Seitzinger v. Reading Hosn. & Med. Ctr., 165 F.3d
236, 239-40 (3d Cir.1999)). The court has cautioned, however, that equitable tolling is to be
invoked “only sparingly.” See Midgley. 142 F.3d at 179. Additionally, the court has reiterated
that in order to qualify for equitable tolling, the petitioner must exercise reasonable diligence
throughout the period he or she seeks to toll. See Pace v. DiGuglielmo. 544 U.S. 408, 418, 125
S.Ct. 1807, 161 L.Ed.2d 699 (petitioner must also establish diligence). .
Petitioner argues that petitioner’s attorney’s negligence entitles petitioner to
equitable tolling. On December 5, 2011, the Pennsylvania Supreme Court denied petitioner’s

■ 7-

Ref: 1969811 pg 48 of S4 for MARK BENTON

request for allowance of appeal. Petitioner claims that his court appointed attorney, Keith
;
Williams, Esq., failed to inform petitioner of the Supreme Court decision. Petitioner asserts that
petitioner wrote to the prothonotary of the Pennsylvania Supreme Court and on January 30, 2012,
the prothonatary notified petitioner that the request for allowance of appeal was denied on
December 5, 2011. Petitioner then wrote to Attorney Williams. On February 20, 2012 Attorney
Williams sent petitioner a letter confirming that the request for allowance of appeal had been
denied. Attorney Williams stated in the letter to petitioner that attorney Williams forwarded the
denial to petitioner’s prior counsel, based on the understanding that prior counsel was going to
represent petitioner at the habeas level. Petitioner claims that Attorney Williams’ negligence in
waiting two and a half months to inform petitioner of the court’s ruling amounts to egregious
.
behavior sufficient to invoke equitable tolling.
In Seitzinger, the Third Circuit held that an attorney’s affirmative
misrepresentations to a client about the attorney’s own actions on the client’s behalf may
constitute an extraordinary circumstance. Seitzinger v. Reading Hosp. & Med. Ctr.. 165 f.3d
236, 238 (3d Cir.1999). In LaCava v. Kyler. the court extended a line of holdings that absent
affirmative misrepresentation, an attorney’s mere failure to inform a client of an unsuccessful
appeal does not qualify as extraordinary: “In non-capital case, attorney error, miscalculation,
inadequate research, or other mistakes have not been found to rise to the ‘extraordinary’
circumstances required for equitable tolling.” 398 F.3d 271,276 (3d C\r.2005)(quoting Merritt
v. Blaine. 326 F.3d 157, 169 (3d Cir.2003)); see also Schleuter v. Varner, 384 F.3d 69, 76-78 (3d
Cir.2004)(attomey’s misconduct did not constitute extraordinary circumstances where attorney
failed to keep promise to file PCRA petition on time and failed to communicate further with

8

.Ref: 1969813. pg 49 of 54' for MARK BENTON

. - i

petitioner about the status of the case). The Third Circuit has drawn a distinction between an
affirmative misrepresentation by counsel about what he had done on behalf of the client and an
attorney’s negligent failure to act. The former equitably tolls the statute, the latter does not. See
Schleuter. 384 P.3d at 76-77.
Petitioner cites the recent Supreme Court decision of Holland v. Florida in
support of his position that Attorney Williams’ negligence constitutes extraordinary
circumstances. 560 US

, 130 S.Ct. 2549, 177 L.Ed.2d 130 (2010). In Holland (a capital

case), the Supreme Court found that the conduct of a habeas petitioner's attorney could “be an
‘extraordinary’ instance in which petitioner's attorney's conduct constituted far more than ‘garden
.variety’ or ‘excusable neglect.

>

5?

Id. at 2564. The Supreme Court explained that it has been held

that “a garden variety claim of excusable neglect”, such as a simple “miscalculation” that leads to
a lawyer to miss a filing deadline, does not warrant equitable tolling. IT The Supreme Court'
explained in Holland the attorney’s actions may have constituted more then a “a garden variety”
or “excusable neglect”. The Supreme Court found extraordinary circumstances might occur
where the attorney:
... failed to file [the petitioner's] federal petition on time despite [the petitioner's] many
letters that repeatedly emphasized the importance of his doing so. [The attorney] apparently did
not do the research necessary to find out the proper filing date, despite [the petitioner's] letters
that went so far as to identify the applicable legal rules. [The attorney also] failed to inform [the
petitioner] in a timely manner about the crucial fact that the Florida Supreme Court had decided
his case, again despite [the petitioner's] many pleas for that information. And [the attorney] failed
to communicate with [the petitioner] over a period of years, despite various pleas from [the
petitioner] that [the attorney] respond to his letters.
Id. at 2564.
Petitioner contends that Attorney Williams’ failure to inform petitioner of the
denial of his request for allowance of appeal is an extraordinary circumstance. The Supreme
9

Ref: 1969811 pg 50 of 54 for MARK BENTON

■I ?

Court in Holland may have decided that extraordinary circumstance is not limited to attorney
misrepresentation but can possibly be found when attorney negligence amounts'to more than
“garden variety” negligence, however, Holland was a capital case. The case at bar is not a capital
case and it is not clear that the' Supreme Court in Holland intended to overrule the Third Circuit
holdings that “[i]n non-capital case, attorney error, miscalculation, inadequate research, or other
mistakes have not been found to rise to the ‘extraordinary’ circumstances required for equitable
tolling.” LaCava v. Kyler. 398 F.3d 271, 276 (3d Cii.2005)(auotins Merritt v. Blaine. 326 F.3d
157, 169 (3d Cir.2003)). Furthermore, the Supreme Court in Holland still noted that “a garden
variety claim of excusable neglect”, such as a simple “miscalculation” that leads to a lawyer to
miss a filing deadline, does not warrant equitable tolling. Id. at'2564.
Petitioner has failed to prove that the alleged negligence of Attorney Williams
amounted to more than “garden variety” neglect. Petitioner has shown that for two months,
Attorney Williams failed to inform petitioner of the denial of the petition for allowance of
appeal. Attorney negligence in failing to inform petitioner of the court’s denial does not
constitute extraordinary circumstances warranting equitable tolling. Irwin v. Dep’t of Veteran s
■ Affairs. 498 U.S. 89, 96, 111 S.Ct. 453, 112 L.Ed.2d 435 (1990)(“Failing to make sure the client
learned of the denial of the petition for review may have been negligent, but the attorney’s
ordinary negligence does not merit equitable tolling of a limitations period.”). .
The instant matter is not a rare situation that warrants equitable tolling. As such.
it is recommended that the instant petition be dismissed as untimely.

'Petitioner filed two separate documents (Docket #2 and # 9) requesting a hearing to take
testimony from petitioner’s prior retained counsel, Attorney Silverman. Petitioner claims that
Attorney Silverman would testify that Attorney Silverman was not representing petitioner and
10

Ref: 1969811 pg 51 of 54 for MARK BENTON

c

Therefore, I make the following:
RECOMMENDATION
AND NOW, this

day of July, 2012, IT IS RESPECTFULLY

RECOMMENDED that the petition for Writ of Habeas Corpus be DISMISSED. It is also
RECOMMENDED that a certificate of appealability not be granted.
The petitioner may file objections to this Report and Recommendation. See Local
Ciy. Rule 72.1. Failure to file timely objections may constitute a waiver of any appellate rights.

. BY THE COURT:

f^LINDA K. CARACA^PAj/ J
UNITED STATES MAGISTRATE JUDGE

did not tell PCRA counsel, Attorney Williams, that he was going to represent petitioner at the
federal habeas level. Petitioner argues this will prove that Attorney Williams should not have
sent the denial notice to Attorney Silverman. This court recommends that petitioner’s request for
a hearing be denied. The alleged testimony from Attorney Silverman would not make a
difference in the court recommendation. Attorney Williams’ decision to forward the denial to
Attorney Silverman was not extraordinary circumstance requiring equitable tolling.
11

let: 1969811 pg 52 of 54 for MARK BENTON

\l

X.

i

t

j

t

Ref: 1969811 pg 53 of 54 for MARK BENTON

Case 2:12-cv-01015-JS

Document 24 Filed 09/19/19

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT.
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

MARK BENTON

No. 12-1015

V.'

.

SEP |<$ 2019

BRIAN COLEMAN, et al.
ORDER

KATE BARKMAN, Clerk
_Dep. Clerk
By.

AND NOW, this 19th day of September, 2019, upon consideration of Petitioner Mark
Benton’s pro se motion for relief from judgment pursuant to Federal Rule of Civil Procedure
60(b)(6), and the Respondent’s response thereto, it is ORDERED the motion (Document 19) is
DENIED.1

1 Petitioner Mark Benton is a' Pennsylvania state prisoner seeking relief from this Court’s
November 1, 2013, Order adopting the Report and Recommendation of United States Magistrate
Tudge Linda K. Caracappa, overruling his objections thereto, and dismissing his 29 U.S.C. § 22jt
habeas corpus petition as untimely. On January 31, 2006, Benton was convicted in the Bucks
County Court of Common Pleas, of first-degree murder, attempted murder, robbery of a motor
vehicle, firearms not to be carried without a license, resisting amest, and .fleeing and eluding a
police officer.
Following his convictions and appeals, Benton sought relief in Pennsylvania state court
pursuant to Pennsylvania’s Post Conviction Relief Act. On February 6, 2012, after failing to
receive relief in state court, Benton filed the instant habeas petition m the United States District
Court for the Middle District of Pennsylvania. The petition was then transferred to this Court on
February 15, 2012. On November 1, 2013, this Court dismissed his petition as untimely. Benton
sought a certificate of appealability from the United States Court of Appeals for the Third Circuit.
Benton’s application was then denied on March 14,2014.
'
On June 26, 2019, Benton filed this pro se motion pursuant to Federal Rule ot Civil
Procedure 60(b)(6) seeking relief from the Court’s November 1, 2013, Order, asserting the Court
was mistaken in determining equitable tolling was unwarranted and the Ninth Circuit Court of
Appeals’ decision in Gibbs v. LeGrand, 767 F.3d 879 (9th Cir. 2014), constituted a new
intervening law and “extraordinary circumstance” warranting relief. Rule 60(b)(6) permits the
court to relieve a party from a “final judgment, order, or proceeding” for “any . . reason that
justifies relief.” Pursuant to Rule 60(c), a motion under Rule 60(b)(6) must be brought ‘within a
reasonable time.” “What constitutes [a] reasonable time depends upon the facts of each case, taking
into consideration the interest in finality, the reason for delay, the practical ability of the litigant to
learn earlier of the grounds retied upon; and [the consideration of] prejudice [if any] to other
parties.” See Devon v. Vaughn, No. 94-2534, 1995 WL 295431, at *2 (E.D. Pa. Apr. 27, 1995)
(citing Kagan v. Caterpillar Tractor, 795 F.2d 601', 610 (7th Cir. 1986)).

Case 2:12-cv-01015-JS Document 24 Filed 09/19/19 Page 2 of 2

BY THE COURT:

When a motion under Rule 60(b)(6) is filed more than one year after judgment is final,
generally, it is untimely absent a showing of “exceptional circumstances. See 0 Neill v. Close,
No. 10-4210, 2015 WL 4578824, at *2 (E.D. Pa. July 29, 2015). “Therefore, when the petitioner
files a Rule 60(b)(6) motion more than one year after the judgment was entered, he bears the "heavy
burden’ of demonstrating exceptional circumstances excusing his delay and establishing his
entitlement to relief.” See id. (citing Gordon v. Monoson, 239 F. App’x 710, 713 (3d Cir. 2007)).
Because Benton filed this motion five and a half years after the Court s November. 1, 2013,
Order, it is untimely absent a showing of extraordinary circumstances. First, Benton has made no
showing of extraordinary circumstances excusing his delay. Although Benton asserts grounds for
relief under a new case Gibbs v. Legrand, 767 F.3d 879 (9th Cir. 2014), he fails to explain why he
did not file the instant motion until June 2019—nearly five years after that case was decided m
2014. See Moolenaar v. Gov’t, of the Virgin Islands, 822 F.2d 1342,1348 (3d Cir. 1987) (finding
Rule 60(b)(6) motion to be untimely where party waited two years after judgment to file motion);
Franks v. Gloucester Cty. Prosecutors Office, 738 F. App’x 79, 81 (3d Cir. 2018) (affirming the
denial of a Rule 60(b)(6) motion where petitioner had provided no reasonable explanation as to
the delay)Second, Benton has failed to show any extraordinary circumstances entitling him to relief.
Specifically, with the basis of this motion on equitable tolling, Benton advances the same
arguments as he did in his objections to Judge Caracappa’s Report and Recommendation. This
Court has already addressed Benton’s arguments on this point,'and nothing in Benton’s motion
persuades the Court to reach a different conclusion. The Court addressed Benton’s arguments at
some length in its Order overruling his objections, ultimately holding equitable tolling was
unwarranted. Further, the “new intervening law” presented in Gibbs does not provide a basis for
relief. In Gibbs, the attorney misconduct was ■ egregious where the petitioner had repeatedly
requested communication from the attorney, the attorney .promised to notify the petitioner of the
results of his post conviction petition, and based on the petitioner’s own research, he discovered
the state supreme court dismissed his petition. Benton, however, has asserted no. such
circumstances that rise to the same level of attorney misconduct or exercise of reasonable diligence
on his own behalf. But see Gibbs, 161 F.3d at 886 (“[Ejxtraordinary circumstances existed where
counsel failed to timely file his client’s habeas petition despite having promised to do so, even
though the petitioner hired him over a year before the AEDPA deadline, paid him $20,000, gave
him files and repeatedly inquired about his case.” (citing Doe v. Busby, 661 F.3d 1001, 1012 (9th
Cir 2011)). Thus, to the extent Gibbs has persuasive value on this Court, it does not provide
Benton with grounds for relief."
Because Benton fails to show extraordinary circumstances excusing his delay in filing this
motion or entitling him to relief, Benton’s Rule 60(b)(6) motion is denied.

February 6, 2020
ALD-110
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3271
MARK BENTON, Appellant
VS.
SUPERINTENDENT FAYETTE SCI, et al.
(E,D. Pa. Civ. No. 2:12-cv-01015)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
1) Appellant’s application for a certificate of appealability; and
2) Appellees’ Response in Opposition to Issuance of a Certificate of
Appealability
in the above-captioned case.
Respectfully,
Clerk

________________
. __________ORDER______________ :________,_________
Appellant’s application for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). Jurists of reason could not debate that the District Court correctly denied his
motion brought under Federal. Rule of Civil Procedure-60(b)(6).- See Miller-El v.
Cockrell 537 U.S. 322, 338 (2003); Slack v. McDaniel 529 U.S. 473, 484 (2000).
By tlje Court,
s/Patty Shwartz. '
Circuit Judge
Dated: April 6, 2020
JK7cc: Mark Benton
Karen A. Diaz, Esq.
. Ronald Eisenberg, Esq.

A True Copy \° 'vf-lutO
U.ts<

.tr

Patricia S. Dodszuweit, Clerk .
Certified Order Issued in Lieu of Mandate

